                      Report on Audit of Indirect and
                        Other Direct Cost System

                                  June 2005

                     Reference Number: 2005-1C-064




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            June 28, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Report on Audit of Indirect and Other Direct Cost System
                              (Audit #20051C0219)

       The Defense Contract Audit Agency (DCAA) examined the contractor’s Federal Sector
       January 3, 2005, indirect and other direct cost system to assure the contractor’s indirect
       and other direct cost system and related internal controls comply with applicable laws
       and regulations.
       The DCAA qualified its report because of the contractor’s policy not to provide internal
       audit reports and workpapers to the DCAA. Also, the DCAA stated the contractor’s
       policy limits its ability to assess the effectiveness of the contractor’s internal audit
       function in monitoring their organizational, accounting, and operational controls.
       The DCAA opined that except for the qualification described above, the indirect cost
       and other direct cost system and related internal control policies and procedures of the
       Federal Sector are adequate. The DCAA examined only the indirect cost and other
       direct cost system. Accordingly, the DCAA expresses no opinion on the contractor’s
       internal control taken as a whole.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
